                                                                             Report No. DODIG-2014-026




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              DECEMBER 20, 2013




                     Assessment of Arlington and
                     Soldiers’ and Airmen’s Home
                     National Cemeteries




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Assessment of Arlington and Soldiers’ and Airmen’s
                                       Home National Cemeteries


December 20, 2013                                      Recommendations Continued

Objective                                                    to implement interagency best practices for contracted
                                                             services supporting Arlington National Cemetery to ensure
We performed this assessment of Arlington                    efficient and effective operations.
and Soldiers’ and Airmen’s Home National
Cemeteries using the Army Directive 2010-04            We recommend the Executive Director for Arlington National
as a guide for the evaluation as well as the           Cemetery:
adequacy of current Arlington National Cemetery
(ANC) outreach practices.                                 •	 Shift focus from major operational and personnel change to
                                                             stabilizing the greater cemetery operational enterprise and
                                                             make minor adjustments as required.
Observations
                                                          •	 Develop and implement a single data entry record
We found Arlington National Cemetery
                                                             management system.
leadership satisfactorily complied with Army
Directive 2010-04.       ANC has made great               •	 Optimize and assess the effectiveness of current processes
progress since the June 10, 2010 directive                   and manpower levels, work with the military services,
publication in their overall operations.                     and assess alternative scheduling options to reduce the
                                                             backlog of those waiting burial.

Recommendations
We recommend the Secretary of the Army:
                                                       Management Comments
                                                       The Executive Director for Arlington National Cemetery
   •	 Explore funding options to allow ANC to          and Army National Military Cemeteries, the Secretary of the
      sustain and modernize their operations.          Army, and the Office of the Under Secretary of Defense for
                                                       Personnel and Readiness provided comments to this report.
   •	 Continue to express support for the              Management concurred with all but one recommendation in the
      FY 2014 National Defense Authorization           final report. The one non-concurrence was redirected to the
      Act granting concession authority to ANC.        Secretary of the Army for response. Additionally, the U.S. Army
   •	 Coordinate with the National Park                Corps of Engineers, North Atlantic Division, provided unsolicited
      Service to develop mutually agreed               comments. The full reproduction of the comments may be
      upon standards for appearance of                 found in this report.
      the grounds in the Arlington National
      Cemetery complex.

   •	 In coordination with the Office of the
      Secretary of Defense, coordinate with
      the Office of Management and Budget



Visit us on the web at www.dodig.mil

                                                                  Report No. DODIG-2014-026 (Project No. D2013-D000SPO-113.000) │ i
                   Based on input from management, we:

                              •	 Redirected one recommendation to the Secretary of the Army.

                   Recommendations Table
                                                                     Recommendations                 No Additional
                                  Management                         Requiring Comment             Comments Required
                    Secretary of the Army                        4.a.(2).                1.a., 4.a.(1) and 4.b.
                    Executive Director, Army National                                    1.b.(1), 1.b.(2), 1.b.(3), 1.b.(4),
                    Military Cemeteries                                                  1.b.(5), 2, 3.a., 3.b., 3.c., and 3.d.
                    Under Secretary of Defense for                                       4.a.(1)
                    Personnel and Readiness

                   Total Observations and Recommendations in this Report: 4 and 14.

                   Please provide comments by January 20, 2014.




ii │ Report No. DODIG-2014-026 (Project No. D2013-D000SPO-113.000)
Report No. DODIG-2014-026 │ iii
                   Distribution:

                   Office of the Secretary of Defense
                        Secretary of Defense
                        Deputy Secretary of Defense
                        Chairman of the Joint Chiefs of Staff
                        Assistant Secretary of Defense (Legislative Affairs)
                        Assistant Secretary of Defense (Public Affairs)

                   Department of the Army
                        Secretary of the Army
                        Commander, U.S. Army Installation Management Command
                        Executive Director, Army National Military Cemeteries
                        Auditor General, Department of the Army
                        Inspector General of the Army

                   Congressional Committees and Subcommittees,
                   Chairman and Ranking Member
                        Senate Committee on Armed Services
                        House Committee on Armed Services




iv │ Report No. DODIG-2014-026
Contents
Introduction______________________________________________________________________________1
Background_______________________________________________________________________________________2
Public Laws_______________________________________________________________________________________2
Objective__________________________________________________________________________________________3
Scope______________________________________________________________________________________________3
Methodology_ ____________________________________________________________________________________4
Criteria____________________________________________________________________________________________6

Part I – Notable Progress_______________________________________________________7
Part II –Arlington and Soldiers’ and Airmen’s Home
  National Cemeteries_________________________________________________________ 13
Observation 1. Organizational Stabilization_________________________________________________ 15
Observation 2. Interoperability between Record Management Systems__________________ 25
Observation 3. Responsiveness to Burial Requests_________________________________________ 29
Observation 4. Single Interagency Standard________________________________________________ 37

Part III – Additional Issues___________________________________________________ 43
Appendices
Appendix A. Scope and Methodology________________________________________________________ 49
Appendix B. Prior Coverage___________________________________________________________________ 51
Appendix C. Glossary__________________________________________________________________________ 53
Appendix D. Organizations Contacted and Visited (Including Cemeteries)_______________ 55
Appendix E. Policies___________________________________________________________________________ 56
Appendix F. 2013 National Defense Authorization Act Language_________________________ 59
Appendix G. Statistical Analysis______________________________________________________________ 61

Management Comments_____________________________________________________ 65
Acronyms and Abbreviations______________________________________________ 81




                                                                                           Report No. DODIG-2014-026 │ v
                                                                                                                             Introduction




Introduction
Arlington National Cemetery (ANC) and the Soldiers’ and Airmen’s Home National
Cemetery (SAHNC) together comprise the Army National Military Cemeteries1 (ANMC).
Approximately 400,000 former servicemen and women and their family members are
buried at ANC.              The SAHNC is one of the country’s oldest national cemeteries,
established in 1861, and marks the final resting place for more than 15,000 veterans,
including those who fought in the Civil War. Today the SAHNC is used for burials of
residents of the Armed Forces Retirement Home-Washington, D.C. As the executive
agent, the Army has assumed full responsibility for providing oversight and addressing
operational issues at ANMC.




  Figure 1. The Entrance to SAHNC and ANC
  Source: DoD IG-SPO


The mission of ANMC is:

                 On behalf of the American people, lay to rest those who have
                 served our nation with dignity and honor, treating their
                 families with respect and compassion, and connecting guests
                 to the rich tapestry of the cemetery’s living history, while
                 maintaining these hallowed grounds befitting the sacrifice of
                 all those who rest here in quiet repose.2




	1	
      ANMC will be used along with its predecessor ANCP (Army National Cemeteries Program) throughout this report.
	2	
      From ANC’s website: http://www.arlingtoncemetery.mil/AboutUs/MissionVision.aspx.




                                                                                                                Report No. DODIG-2014-026 │ 1
Introduction




                                           Figure 2. Army National Military Cemeteries Organization Chart
                                           Source: ANMC



                  Background
                  Its mission statement implies ANMC should have and maintain the highest standards
                  for the entire interment/inurnment process.3 Unfortunately, allegations that this was
                  not the case led to a 2009 Army Inspector General investigation of cemetery operations,
                  which identified multiple problems and made recommendations for corrective
                  action. With the benefit of a new cemetery management team, the addition of an ANC
                  Advisory Committee, and under the direction of the Secretary of the Army, ANMC
                  has made significant progress toward becoming the standard bearer for U.S. Military
                  cemetery operations, although this report will recommend that additional work still
                  needs to be accomplished.


                  Public Laws
                  Public Law 111-339, “Reports on Management of Arlington National Cemetery,
                  December 22, 2010” required the Army Inspector General (IG) to inspect Arlington
                  National Cemetery yearly for 3 years. The Army IG published three reports during


                  	3	
                        Unless specifically needed for clarification, the word “burial” will be used to denote both interments and inurnments for
                        the remainder of this report.




2 │ Report No. DODIG-2014-026
                                                                                             Introduction



this time period. Section 591 of the “National Defense Authorization Act of Fiscal
Year 2013,” January 3, 2013, directed the Department of Defense Inspector General
(DoD IG) to conduct the final (in the series) inspection of ANC and the SAHNC.
Additional laws covering the cemeteries include:

        •	 Army National Cemeteries, 32 CFR sec. 553 (2009), specifies the authority
           and assigns responsibility for development, operation, maintenance, and
           administration of the two cemeteries.

        •	 Army National Military Cemeteries, chapter 466, title 10, United States
           Code (10 U.S.C. chapter 466 § 4721(a) [2013]) directs the Secretary of the
           Army to develop, operate, manage, administer, oversee, and fund the ANMC
           in a manner that fully honors the service and sacrifices of those buried at
           the cemeteries.


Objective
On February 28, 2013, the DoD IG announced an assessment to determine the:

        •	 execution of and compliance with every section of the Army Directive for
           Arlington National Cemetery, including, without limitation, an evaluation
           of the sufficiency of all contract management and oversight procedures,
           current and planned information and technology systems, applications,
           and contracts, current organizational structure and manpower, and
           compliance with and execution of all plans, reviews, studies, evaluations, and
           requirements specified in the Army Directive; and

        •	 the adequacy of current practices at Arlington National Cemetery to provide
           information, outreach, and support to families of those individuals buried
           at ANC regarding procedures to detect and correct any current errors
           in burials at ANC.


Scope
The purpose of this project was to assess the implementation of Army Directive
2010‑04, “Enhancing the Operations and Oversight of the Army National Cemeteries
Program,” June 10, 2010.

        •	 The following areas were within the scope of this project:

                  °° ANC operations, with over 400,000 burials, and




                                                                                Report No. DODIG-2014-026 │ 3
Introduction




                                           °° SAHNC operations, with over 15,000 burials.

                                •	 The following areas were outside the scope of this project:

                                           °° cemeteries located on current and former military installations
                                              inside and outside the United States, and

                                           °° cemeteries maintained by the American Battle Monuments
                                              Commission.


                  Methodology
                  The team reviewed the following ANMC-related documents during this assessment:

                                •	 Army IG and Government Accountability Office (GAO) reports. The team
                                  reevaluated the issue areas raised to see whether changes had been
                                  successfully implemented;

                                •	 the ANC 2012 Campaign Plan and its updated variant;

                                •	 the Master Plan (updated in 2013);

                                •	 ANMC standard operating procedures (SOPs) to determine if they were
                                  present, up-to-date, understood, and followed by the workforce; and

                                •	 contracts and contract support from Mission and Installation Contracting
                                  Command (MICC)-Belvoir and U.S. Army Corps of Engineers (USACE)
                                  related to cemetery operations.

                  In addition we conducted a statistical sampling at the 99 percent confidence level,
                  with a 1 percent error rate, of 459 graves (both filled and planned/empty-open) for
                  ANC and also conducted a sampling of 375 gravesites at SAHNC, at the 95 percent
                  confidence level, with a 5 percent error rate. The results of this assessment process
                  are located at Appendix G.

                  The team began the assessment for ANC by determining if the printed information
                  on the public website4 matched the data on the headstone with respect to: Name,
                  Date of Birth, Date of Death, Date of Interment, Location, and Headstone Photo. If
                  there was a discrepancy in any of the data for any record, the team went to the
                  internal ANC website for further clarification. In all but one case, ANC had already

                  	4	
                        http://public.mapper.army.mil/ANC/ANCWeb/PublicWMV/ancWeb.html




4 │ Report No. DODIG-2014-026
                                                                                           Introduction



identified discrepancies the team discovered and was in the process of correcting
it. The one error was a duplication of one inurnment on the ANC public site. The
duplicate entry was deleted by ANC personnel.

We discussed errors from incorrect, privately-provided headstones and ANC’s policies
for correcting these errors (see Additional Significant Issues).


Army Directive 2010-04
The IG team reviewed the four previous Army Inspector General reports (three that
inspected compliance with the Army Directive 2010-04) during the research phase of
this assessment. The team also assessed the ANMC Executive Director’s compliance
with the Secretary of the Army’s Directive 2010-04 and found the Executive Director
was continuing to comply with Army Directive 2010-04.

Table 1. Army Directive 2010-04 Executive Director Requirements
                                                        Assessed     Satisfactory
        Executive Director Requirement/Task               Y/N            Y/N
 1.   Exercising authority over all aspects of the         Y              Y
      ANCP
 2.   Formulating, promulgating, administering
      and overseeing plans, policies and regulations       Y              Y
      pertaining to the ANCP
 3.   Placement of memorials and monuments on              Y              Y
      lands of the Army National Cemeteries
 4.   Arlington National Cemetery Master Plan              Y              Y
 5.   Defend the annual budget                             Y              Y
 6.   Supervising the Superintendent and the               Y              Y
      Deputy Superintendent of ANC
 7.   Implementing an Army National Cemeteries             Y              Y
      Advisory Commission
 8.   Section 60 Pilot Program                             Y              Y
 9.   Executive Director coordinate the proposed           Y              Y
      assignment of other duties and responsibilities
Source: DoD IG-SPO




                                                                              Report No. DODIG-2014-026 │ 5
Introduction



                  Criteria
                  We used public laws, Army Regulations and Directives, and internal ANC publications
                  to complete this assessment. Specific criteria are listed within each observation and
                  again at Appendix E.




6 │ Report No. DODIG-2014-026
Part I
Notable Progress




                   Report No. DODIG-2014-026 │ 7
                                                                                 Part I - Notable Progress



The report notes five examples of areas in which significant progress has been made in
ANMC management and operations. These include:


ANC Explorer, Mapper, and GIS Systems Are Improving
the Public’s Utilization and Navigation of the Cemetery
The ANC Explorer operation is the public face of the cemetery on the Internet. It is
supported by Army enterprise information systems. Mapper is the Army’s enterprise
geographic information system (GIS) that enables ANC personnel to view all activities
occurring at ANC on a map at any given time. Together, Explorer and GIS provide
up-to-date data for the public to use for information and visiting gravesites.




 Figure 3. ANC Explorer and Mapper on Display at ANC Visitors’ Center
 Source: ANC, DoD IG-SPO




Expansion Projects Are Being Planned
Plans are set and moving forward to expand the burial capacity of ANC.                  The
Millennium Project, which reclaims land recovered from Fort Myer, will expand the
burial capacity to support interments until 2035 for first time burials. Furthermore,
the demolition of the World War II era buildings (known as the Navy Annex)
adjacent to Interstate 395 is proceeding, with input by Federal, state, and local
governments into the plans for ANC use of this area. This new area is projected to
further expand burial capacity of ANC up to the 2056 time frame for first interments.




                                                                                 Report No. DODIG-2014-026 │ 9
Part I - Notable Progress




                                      Figure 4. Map of ANC Expansion Projects
                                      Source: ANC



                  ANC’s Grave Accountability Procedures Are Sound
                  ANC has established a rigorous system of procedures to ensure all new burials are
                  entered correctly the first time in the Interment Scheduling System (ISS).                                            It also
                  developed a complete set of business rules to certify all current recorded entries. ANC
                  implemented a system to quickly correct any deficiencies found on the public
                  website and to simultaneously correct all the associated background data.




                     Figure 5. ANC Dig Verification Sheet and Casket Identification Tags
                     Source: DoD IG-SPO




                  Once the 2010 Army IG review was complete, the number of cases5 requiring
                  resolution6 at ANC totaled 64,230. Of the 7,547 cases with discrepancies7 identified

                  	5	
                      A case is a burial at ANC. A burial may have multiple associated records.
                  	6	
                      There was some type of inconsistency between headstone and records.
                  	7	
                      These discrepancies were administrative in nature (differences in dates of birth, death or interment, name spelling, and
                      other similar types of errors).




10 │ Report No. DODIG-2014-026
                                                                                                                 Part I - Notable Progress



as of July 1, 2013, approximately 80 percent have undergone review and
adjudication with the appropriate corrective action either having been taken or the
corrective action is currently being implemented.                                  The remaining 20 percent
(approximately 1,509 cases) requires further research and adjudication before final
corrective action can be taken. There was no loss of accountability. Given the age
of some of these burials and/or lack of records, some discrepancies may never be
resolved. Accountability is assured, but 100 percent information accuracy is elusive.




  Figure 6. Identification Markers for Casket and Cremated Remains
  Source: DoD IG-SPO



Contracting Entities Are Committed to Improving
Contracting Excellence at ANC
Previous assessments by the Army IG8 and the GAO9 identified contracting deficiencies
supporting the operation of ANC. ANC has taken steps to correct previously identified
contracting deficiencies and improve contract management through coordination with
organizations providing specialized contracting assistance.

ANC does not award its own contracts, but receives contracting support in two
different ways.          ANC is partnered with the Army Contracting Command10 and the
Army Corps of Engineers. New agreements established with each identify their broad
responsibilities for providing ANC contract support.

We assessed the sufficiency of ANC contract management and oversight procedures. In
order to do so, we reviewed 10 recent contracts supporting ANC, 5 each from Mission
and Installation Contracting Command-Fort Belvoir (MICC-Belvoir) and U.S. Army
Corps of Engineers-Norfolk District (USACE-Norfolk).

We determined that these contracts did not have any significant deficiencies.

	8	
     U.S. Army Inspector General Agency, “Special Inspection of Arlington National Cemetery Final Report” (Washington D.C.:
     June 2010).
	9	
     GAO, “Arlington National Cemetery: Additional Actions Needed to Continue Improvements in Contract Management,”
     GAO-12-99 (Washington D.C.: Dec. 2011).
	10	
     In April 2011, ANC also signed a separate agreement with the MICC, which is part of the Army Contracting Command,
     which outlines additional responsibilities for providing contracting support to ANC.


                                                                                                                 Report No. DODIG-2014-026 │ 11
Part I - Notable Progress



                  Culture and Esprit de Corps of ANC Personnel
                  Has Improved
                  Leadership and staff at ANC demonstrated a strong commitment to their mission and a
                  high level of esprit de corps. Morale was high, as well as a determination to continue to
                  improve operations to ensure that the highest standards of cemetery support are
                  provided to the public. The enthusiasm and reverence for the mission displayed by all
                  persons our team encountered in the operation of the cemeteries was palpable.




                     Figure 7. Esprit de Corps of ANC Personnel
                     Source: DoD IG-SPO




12 │ Report No. DODIG-2014-026
Part II
Arlington and Soldiers’ and Airmen’s Home
National Cemeteries


Introduction
This section contains a series of observations and recommendations for improvement
that apply to both cemeteries.




                                                                         Report No. DODIG-2014-026 │ 13
                                  Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




Observation 1
Organizational Stabilization
The ANC structure and processes were insufficiently mature, stable, and funded to
execute the complete ANMC mission set.

This occurred because ANC experienced a 3-year phase of frequent change, rapid
growth, and substantial technological advances while maintaining a demanding
operations tempo and coping with budget constraints.

As a result, the ANC organization was not resourced and ready to meet the growing
demand, high standards, and constant workload of operating a national shrine and
the larger ANMC enterprise.



Applicable Criteria
(See Appendix E, numbers 3, 1, 6, 12, 14, 7, and 8, for additional details)

Secretary of the Army Memorandum, “Army National Cemeteries Program Campaign
Plan 2012,” January 1, 2012.

Secretary of the Army Memorandum, Army Directive 2010-04, “Enhancing the
Operations and Oversight of the Army National Cemeteries Program,” June 10, 2010.

Department     of    the   Army    Memorandum,      “Executive    Report,     Organizational,
Manpower and Equipment Assessment and Update of the Army National Cemeteries,”
January 25, 2013.

Public Law 99-177, “Gramm-Rudman-Hollings Balanced Budget and Emergency Deficit
Control Act of 1985,” December 12, 1985.

Public Law 112–25, “Budget Control Act, 2011.”

Arlington National Cemetery, U.S. Army, “Table of Distribution and Allowances,”
February 27, 2013.

Department of the Army, Complete Statement of Ms. Kathryn A. Condon, Executive
Director,   Army    National   Military   Cemeteries,   before    the   Subcommittee       On
Military Construction, Veterans’ Affairs and Related Agencies Committee on
Appropriations, United States House of Representatives, First Session, 113th Congress,
March 13, 2013.

                                                                                    Report No. DODIG-2014-026 │ 15
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  Discussion
                  ANC began a phase of corrections,
                  restoration,       and     modernization          in
                  2010. The challenges presented to the
                  organization resulted from 14 decades
                  of varied methods of record-keeping
                  and site-planning, plus over 20 years
                  of neglect of an infrastructure with
                  50 plus year-old components. In 2010,
                  cemetery        administration      used     index     Figure 8. Index Card Showing Record of Interment
                                                                         Source: ANC
                  cards     and     typewriters      to    maintain
                  burial records.       Since 2010, the organization made great strides to remedy these
                  challenges by modernizing management, records administration, grounds keeping,
                  information technology (IT) and other infrastructure. Index cards have given way
                  to smart phones.

                  Simultaneously, the public demand for burials at ANC has continued at a high rate,
                  paced by the effects of a nation at war and by the passing of World War II and Korean
                  Conflict veterans. Resource priorities at ANC were shared between modernization
                  efforts and fulfilling the day-to-day mission of burial ceremonies and support to the
                  visiting public. Figure 7 shows the initial challenges facing the newly formed ANC
                  enterprise in 2010.




                                                            Transition                   Steady State
                       Initial focus:
                         corrections,                         focus:                        focus:
                         rebuilding &                      documenting,                   maturation,
                        modernization                       planning &                   sustainment &
                                                            agreements                    assessment




                     Figure 9. ANC Organizational Progress Since 2010
                     Source: DoD IG-SPO




16 │ Report No. DODIG-2014-026
                                    Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



Progress Efforts
The ANC entered a strategic development phase after it built on these initial
corrections and modernization efforts.            By mid-2012, ANC developed several new
SOPs. Standards and measures were established and training on them had begun.
ANC established relationships with external agencies and wrote and implemented
a number of Memorandums of Agreement (MOAs).                        And, planning for the future
became a priority for ANC.

The ANC staff developed and implemented a Campaign Plan in 2012 that looked
forward to the further development of ANC as a national shrine. In early 2013, the
ANC leadership reviewed their strategic plan and tracked progress toward goals via
metrics. Our analysis of the Campaign Plan review indicated many objectives had been
established and were currently operative.

Business relationships, both internal and external, need time to mature as well.
External organizations such as Mission and Installation Contracting Command,
U.S. Army Information Technology Agency, and others, established relationships and
agreements with ANC that did not exist prior to 2010. New supporting agencies as
well as ANC are still learning how to best engage each other.




       Figure 10. ANC Explorer is a product of Army Information Technology Agency
       Source: ANC




                                                                                       Report No. DODIG-2014-026 │ 17
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  There is now an opportunity for a shift to a steady state phase given the momentum
                  and progress to date and once sufficient resources are provided. An evaluation of
                  progress by ANC leadership with an emphasis on corrections and modernization
                  lessons learned and implemented, would prove useful.                                   A shift in management
                  approach to prioritize stabilization would enable ANC to refresh, learn, evaluate,
                  and recommit to the mission. All elements of the ANC—individuals, teams, leaders,
                  and processes—should then be better prepared to continue to mature over time.


                  Manpower
                  Prior to 2010, no manpower studies
                  had been conducted nor had a Table
                  of Distribution and Allowances (TDA)
                  been developed for ANC. The Secretary
                  of       the     Army        (SECARMY)           published
                  Army           Directive      2010-04,         “Enhancing
                  the Operations and Oversight of the
                  Army           National        Military        Cemeteries
                  Program,” June 10, 2010, which initiated a
                                                                                        Figure 11. ANC Amphitheatre
                  U.S. Army Manpower Analysis Agency                                    Source: DoD IG-SPO
                  (USAMAA) manpower study in  2010.
                  The SECARMY directed USAMAA, the U.S. Army Force Management Support Agency
                  (USAFMSA), and the Executive Director, Army National Cemeteries Program
                  to conduct an assessment for current and planned changes to ANC’s business
                  processes and staffing requirements. Guidance included developing authorization
                  documents for personnel and equipment and updating common tables of allowances
                  for ANC and post cemeteries throughout the Army. This directive followed the GAO
                  Report, GAO-120-105, “Arlington National Cemetery: Management Improvements
                  Made, but a Strategy is Needed to Address Remaining Challenges,” December 15, 2011.

                  The USAMAA published its manpower study on January 25, 2013.11                                      The study
                  recommended manpower and organizational changes to improve the effectiveness of
                  ANC to execute its strategic responsibilities and perform its day-to-day mission. The
                  recommendations in the manpower study specifically cited concerns about, and made
                  recommendations for additional personnel resources – management personnel, IT
                  personnel, and the need for a Proponency office. The Proponency office would fulfill


                  	11	
                         The study’s results were incorporated into the February 27, 2013 TDA.




18 │ Report No. DODIG-2014-026
                                               Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



the responsibilities of administering, operating, and maintaining all cemeteries under
the jurisdiction of the U.S. Army. The ANC Executive Director was designated the head
of the Proponency office and made responsible for all of ANMC, which included over
25 cemeteries.

Despite recommendations to increase personnel strength, the DoD IG team observed
that current staffing may be inadequate and inappropriate to support and sustain
certain aspects of the ANC enterprise.12                          Several of the documented requirements
noted in the USAMAA manpower study had not been authorized. Assigned
personnel across the various departments of ANC ranged from 33 to 100 percent
of current authorizations.                    Only 60 percent of the USAMAA-identified required
positions for the IT division had been authorized in the ANC’s manpower document.
As an example of the effect of this personnel shortage, the IT section had
members routinely working up to 70 hour work-weeks in addition to personnel
hired above and beyond the TDA limits (over-hires) supporting the ANC mission.

The ANC mission pace is demanding and requires sufficient personnel in the
work force to meet the high demand, exacting standards, and operational surges.
Insufficient manning may impact sustaining the organization’s performance and
morale, which can lead to organizational fatigue and turnover of personnel and,
moreover, has prevented accomplishment of a key mission objective; reducing the
burial backlog.

The ANC budget office cited insufficient budget authority as the primary reason for
the shortage of authorized positions on the TDA. That portion of the ANC budget
based on the cemetery expenses appropriation (Title 3 appropriation funds -
Cemeterial Expenses, Army Salaries and Expenses) was insufficient to support
manning all required positions determined by the USAMAA manpower study.

The study also recommended a follow up survey be conducted in Summer/Fall 2014.
Not all authorized TDA slots were filled as of April 2013. ANC leadership needs to
gather metrics on the TDA once it is filled and determine the effectiveness of the
new structure, leadership, and manpower levels.




	12	
       The former Executive Director stated the current TDA appeared to be sufficient because she was unsure if problems were
       caused by lack of people or process issues. See pages 20-21 for more details.




                                                                                                                  Report No. DODIG-2014-026 │ 19
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  Budget
                  The ANC budget was limited by Public Law 112-25, “Budget Control Act of 2011,”
                  August 2, 2011. The Office of Management and Budget (OMB) did not approve any
                  budget growth beyond the established budget of 2012 for ANMC. The 2012 budget
                  was based on the ANC activities prior to 2011. The ANC budget should have increased
                  since 2010 because of the substantial growth and modernization at ANC; however,
                  budget growth has been curtailed due to statutory constraints imposed by OMB.
                  Without some means of relief, continued budget constraints will create difficulties
                  for ANC to sustain their progress and momentum.


                  Sustainment
                  Sustainment Measures
                  Sustainment measures include continuation
                  training,      program   evaluation,   metrics-
                  gathering, and benchmarking processes to
                  determine if changes made were complete
                  and proper. The ANC organization needs
                  to allot time, priority, and manpower to
                  assess progress and to examine what is
                                                                    Figure 12. McClellan Memorial Arch, the Original
                  working, what is not working, and what            Main Entrance to ANC
                  needs adjustment.                                 Source: DoD IG-SPO


                  Internal Inspections
                  Establishing an internal inspection program will further solidify and benchmark
                  the ANC organization.       As identified in the USAMAA manpower survey, additional
                  inspection personnel should be identified and justifications written for authorization,
                  then approval, in the TDA in order to carry out an internal inspection program. The
                  internal inspection program serves to provide a means to discover and address
                  issues sooner. The inspection program also enables the ANC Executive Director to
                  maintain oversight of the ANMC enterprise. An effective organizational inspection
                  program (OIP) grows in value when inspections are conducted and follow-up occurs.

                  Funding
                  There will be a need to make adjustments to ANC and ANMC funding requirements
                  as the organization matures. ANMC should develop strategies and documentation to




20 │ Report No. DODIG-2014-026
                                    Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



advocate for additional resources and to support participation in the Department of
the Army and Department of Defense funding processes.

Stabilization
Stabilizing the ANC organization and processes is necessary and a shift from
modernization to stabilization also promotes and solidifies ANC as a role model
for ANMC as it continues to seek to fulfill and comply with Army Regulation 290-5,
“Army National Cemeteries,” September 1, 1980.


Conclusion
Organizational stabilization is essential to the long term health of ANC. ANC manpower
and funding need immediate attention; these two elements are the prime supports
required to underpin the strides made in the past 3 years and ensure continued
progress. By stabilizing ANC, the organization will be well positioned to be a model
for cemetery operations. The developments and lessons learned by ANC can move
existing U.S. Army cemeteries forward in a shorter time span, leverage the technology
investment outlays, and potentially avoid the same growing pains.


Recommendations, Management Comments, and
Our Response

        Recommendation 1.a.
        Secretary of the Army, explore options to fund and allow budget
        growth to sustain modernization of Arlington National Cemetery
        enterprise.


        Recommendation 1.b.
        Arlington National Cemetery Executive Director should:

                1.	   Shift     organizational   focus   from   Arlington   National
                      Cemetery proper to the Arlington National Military
                      Cemeteries enterprise.

                2.	   Stabilize the Arlington National Cemetery enterprise until
                      the effectiveness of the current organization can be assessed.

                3.	   Assess the effectiveness of current processes and manpower
                      levels.




                                                                                   Report No. DODIG-2014-026 │ 21
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




                                    4.	   Identify risks and mitigations to sustaining the Arlington
                                          National Cemetery enterprise.

                                    5.	   Pursue full authorization and filling of required positions as
                                          per U.S. Army Manpower Analysis Agency manpower study
                                          documented on the Table of Distribution and Allowances.


                  Management Comments
                  Secretary of the Army
                  The Secretary of the Army concurred with comment to Recommendation 1.a. The Army
                  will forward a request to change the budget baseline to the FY13 level.

                  Executive Director of Arlington National Cemetery
                  The Executive Director concurred with each of the sub-elements of Recommendation 1.b.
                  To each of the sub-elements of the recommendation, the Executive Director noted that:

                             •	 ANC is finalizing realignment and funding for five positions to support the
                                 ANMC Table of Distribution and Allowances.           The requests are awaiting
                                 final approval.

                             •	 A pragmatic approach toward change and growth is imperative to the
                                 continued execution of ANC’s mission. The ANC enterprise needs to stabilize
                                 and assess and adjust their processes as required.

                             •	 ANC is requesting a follow up manpower study, once the current
                                 organization matures and is able to assess itself.

                             •	 Sustaining ANC at current levels of operations and standards incurs risk of
                                 mission degradation due to resource constraints. Potential overtaxing of
                                 the staff could result in higher attrition rates thus impacting ANC’s ability to
                                 maintain their high standards.

                  Our Response
                  Secretary of the Army
                  The comments of the Secretary of the Army are responsive for Recommendation 1.a. No
                  further comments are required at this time.




22 │ Report No. DODIG-2014-026
                               Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



Executive Director of Arlington National Cemetery
The comments of the Executive Director of Arlington National Cemetery were
responsive and met the intent of each sub-element of Recommendation 1.b. ANC needs
time to assess their operations and then make the appropriate changes. No further
comments are required at this time.




                                                                             Report No. DODIG-2014-026 │ 23
                                Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




Observation 2
Interoperability between Record Management Systems
The enterprise information systems used by the ANC, specifically the Remedy system
by the Call Center and the ISS by the interment schedulers, were not integrated for
efficient data management.

This occurred because ANC lacked an automated interface process between the two
systems to support the accurate transfer of data.

As a result, the ANC burial service schedulers had to manually transfer data from
the Remedy system to the ISS, resulting in the increased likelihood of errors and
prolonging the interment process.



Applicable Criteria
(See Appendix E, number 3 for additional details)

Secretary of the Army Memorandum, “Army National Cemeteries Program Campaign
Plan 2012,” January 1, 2012.


Discussion
The ANC utilized two separate enterprise information systems for data management,
the Remedy system and the ISS. The Remedy system was the initial system of record
keeping, and the ISS was used for scheduling burial services.

                                             The ANC Call Center was established in 2010
                                             to receive and manage inquiries and requests
                                             to       include     gravesite       concerns,
                                             such as headstone replacement, and to
                                             schedule burial services.         The Remedy
                                             system    is   the   enterprise    information
                                             system used by the ANC Call Center for
                                             inquiry and request management. ANC Call
 Figure 13. ANC Schedulers                   Center personnel must assign a case number,
 Source: ANC
                                             generated by the Remedy operating system,




                                                                                  Report No. DODIG-2014-026 │ 25
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  to all inquiries and requests received through the ANC Call Center and record case
                  information in Remedy for case management.              Cases developed in the Remedy
                  system are categorized, and burial service requests are then assigned to the
                  ANC scheduling office.




                     Figure 14. ISS System Used By ANC Schedulers
                     Source: ANC




                  The ANC schedulers, on the other hand, do not use the Remedy system, but instead
                  use a separate information technology system, the ISS. The ANC began using the
                  ISS to schedule burial services in 2003.          ANC schedulers must manually transfer
                  data from Remedy to ISS in order to initiate the scheduling process.         Schedulers
                  receive hands-on training as well as practice, for both the Remedy system and
                  ISS tools, before they are tasked with scheduling duties on their own. The same
                  information (name, date of birth, and date of death, as well as the case number)
                  that was initially recorded into Remedy by Call Center personnel must then be
                  manually transferred into ISS by the scheduler in order to schedule the requested
                  burial service.       Schedulers transfer this information via retyping or copying and
                  pasting. This manual transfer of information creates an opportunity for errors and
                  significantly increases the likelihood of inaccuracies in transcription.

                  Individual schedulers are assigned 10-15 burial service request cases per day, in
                  addition to another 25 cases or more pending scheduling completion. For pending
                  cases, schedulers must wait for additional information, requested documents,
                  and/or confirmation of funeral service date and time in order to finalize the
                  scheduling process.         The DoD IG team observed the processes conducted by an
                  ANC scheduler and observed the scheduler incorrectly retype information as well
                  as incorrectly transfer information via a drag and drop process.



26 │ Report No. DODIG-2014-026
                                Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



Conclusion
Errors may occur from multiple data entry methods resulting in decreased data
integrity.   The ANC Executive Director was aware of the technological deficiency
and stated that future ANC plans should require improved information technology
systems. Information technology systems, Remedy and ISS, should be integrated into
one enterprise system in order to eliminate multiple data entries. The ANC Chief
Information Officer stated that future improvement plans include merging the GIS
with ISS to become the enterprise platform. An automated transfer process between
the systems would reduce opportunities for human error, improve record management
by increasing speed and accuracy of the transfer process, and enhance the interment
scheduling process.


Recommendations, Management Comments, and
Our Response

         Recommendation 2.
         Executive Director, Army National Military Cemeteries, develop
         and implement a single data entry process and system for record
         management at the Arlington National Cemetery that captures all
         the burial requirements needed from initial record creation intake
         through burial scheduling to final interment.


Management Comments
Executive Director for Army National Military Cemeteries
The Executive Director concurred with comment to the recommendation. To solve
this issue, ANC is developing an in-house solution to use ISS at the Call Center. The
Call Center agents will be trained on the proper use of ISS and, once the solution
is deployed, ANC would then be able to have a single source of data.


Our Response
Executive Director for Army National Military Cemeteries
The comment of the Executive Director for Army National Military Cemeteries is
responsive and met the intent of Recommendation 2.          This action will lessen the
opportunities for mistakes. No further comment is required at this time.




                                                                              Report No. DODIG-2014-026 │ 27
                                Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




Observation 3
Responsiveness to Burial Requests
The time for ANC staff to follow up on initial requests for burial exceeded
ANC standards.

The overall time delay/wait for an initial call back was caused by higher demand
for burial at ANC than current manpower could accommodate.

The burial demand resulted in a continuing backlog that was challenging for ANC
current manpower capability to eliminate and created a public perception of
inefficiency and lack of responsiveness to family’s burial needs at ANC.



Applicable Criteria
(See Appendix E, numbers 10, 3, 1, 6, 2, and 7 for additional details)

Fragmentary Order (FRAGO) 1 to Annex A (ANC Strategy Map Details) to “Army
National Cemeteries Campaign Plan 2012,” March 27, 2013.

Secretary of the Army Memorandum, “Army National Cemeteries Program Campaign
Plan 2012,” January 1, 2012.

Secretary of the Army Memorandum, Army Directive 2010-04 “Enhancing the
Operations and Oversight of the Army National Cemeteries Program,” June 10, 2010.

Department of the Army Memorandum, “Executive Report – Organizational,
Manpower and Equipment Assessment and Update of the Army National Cemeteries,”
January 25, 2013.

Department of the Army Memorandum, “Executive Report – Organizational,
Manpower and Equipment Study of the Army National Cemeteries,” July 23, 2010.

Arlington National Cemetery, U.S. Army, “Table of Distribution and Allowances,”
February 27, 2013.


Discussion
Every day at ANC, more than 160 cemetery employees and ceremonial bands and
units from the Army, Navy, Marine Corps, Air Force, and Coast Guard honored




                                                                              Report No. DODIG-2014-026 │ 29
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  through burial an average of 27-30 veterans and family members. They do this 5 days
                  a week and some on Saturdays; every week of the year (over 7,000 annually). The
                  Army National Cemeteries Program Campaign Plan (ANCP) “decisive” line of effort,
                  its core mission, is to honor the fallen. ANC does this by scheduling and conducting
                  interment and inurnment services and accurately documenting the burials. Emphasis
                  is placed on scheduling funerals as soon after the death as possible in a professional
                  and compassionate manner and arranging for the highest military honors authorized.




                     Figure 15. ANC Campaign Plan Strategy Map
                     Source: ANC




                  As noted earlier in this report, there had been no manpower studies for ANC prior
                  to 2010.       The 2010 study concluded that, based on their workload analysis, ANC
                  was significantly understaffed to perform its mission. The workload analysis resulted
                  in a recommended total increase of 46 civilian positions. The follow-on manpower
                  study was completed on January 25, 2013, and it recommended an additional
                  23 positions for ANC. While none were specifically designated for ISB, 4 were hired
                  for ISB operations.

                  According to the former ANC Executive Director, the current TDA (as of February 2013)
                  appeared to be sufficient because she was not sure delays in scheduling burials was a


30 │ Report No. DODIG-2014-026
                                      Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



people or process issue. According to ANC representatives, they first wanted to ensure
the technology was working and then get the personnel hired, trained, and working
before deciding if more people needed to be added to the organization.

We observed that ANC received more requests for burial each day than could be
scheduled. As a result, ANC was not able to keep pace with the demand and the backlog
of burial requests increased.

According to responsible ANC employees, there has always been a backlog in
scheduling interments and inurnments.                  The current backlog was attributable to
several factors; however, the most significant, as noted in the Army IG Report,
“Department of the Army Inspector General Inspection of the Army National
Cemeteries Program and Arlington National Cemetery,” September 16, 2011, was
that every call is now answered and documented in the automated system following
establishment of the ANC Call Center in December 2010. Prior to December 2010,
approximately 75 percent of the daily calls to the Interment Services Branch (ISB)
at ANC went unanswered.                 The improved responses to intake calls through
improved business practices have resulted in a corresponding increase in the
number of scheduling requests, reflecting more accurately the actual demand for
burial services.

In addition, the ANC staff has experienced an increase in the scheduling load in recent
years because of the increasing number of deaths among aging veterans. This trend is
expected to continue for the foreseeable future. In October 2012, the average backlog
for burial services was approximately 500 cases. By December 2012, the backlog had
reached over 800 and, by February 2013, it reached 1,500.                   By July 22, 2013,
the ISB reduced the total backlog from 2,118 to 1,911. This is not considered acceptable
to ANC staff we interviewed.




  Figure 16. ANC Buries Over 7,000 Veterans Annually
  Source: DoD IG-SPO




                                                                                     Report No. DODIG-2014-026 │ 31
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  Burial Timeline Standards Not Being Met

                  While ANC previously set a performance goal of 48 hours for the initial return call
                  from ISB for both casketed and cremated remains, the increasing number of burial
                  requests—and subsequent growth in the backlog—have made that goal unrealistic.
                  At the start of our assessment, schedulers made the first follow-up call no later than
                  2 weeks after the initial call center request for casketed remains and 16 weeks for
                  cremated remains.         To better accommodate the growing number of requests, and
                  ensure that accurate information was provided to family members, the new ISB Chief
                  established a goal of 3 days for casketed remains and 14 days for cremated remains.
                  This new standard was included in the 2013 ANC Campaign Plan.

                  The Superintendent stated during our out-brief in June 2013 that manpower,
                  resources, and skill sets have to be developed to bring down the wait time. The wait
                  time for casketed burials had been reduced to less than 2 weeks, but had risen
                  for inurnments; however, neither met acceptable ANC timeline targets.                   The
                  Superintendent stated that ANC staff had begun to work overtime to reduce the
                  backlog. The Acting/Interim Executive Director stated that they were still working
                  on reducing the wait times and committed to meeting standards.


                  Manpower Shortage Identified and Efforts to Fill Vacancies
                                                           Between 2010 and 2012, ANC experienced
                                                           a significant personnel turnover in the ISB,
                                                           losing almost one-third of its schedulers/
                                                           representatives. Notwithstanding efforts to fill
                                                           all vacancies, the temporary loss of personnel
                                                           had a significant negative impact on the ability to
                                                           schedule funeral services.

                     Figure 17. ANC Representatives        In March 2013, as the backlog continued to
                     Source: ANC
                                                           increase, ANC was authorized to hire against
                  the vacant positions in the ISB.      ANC leadership also reallocated seven additional
                  personnel (four civilians and three military) to work directly on reducing the backlog.

                  To reduce the current backlog more rapidly, the Secretary of the Army directed, in
                  June 2013, the Executive Director to reallocate additional personnel from existing
                  end strength hired against the February 2013 TDA. The Executive Director identified




32 │ Report No. DODIG-2014-026
                                  Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



three additional personnel authorizations against which to hire and assign to the
ISB to perform scheduling tasks.        The Secretary of the Army also directed the
Executive Director to determine whether a need existed to hire additional permanent
schedulers/representatives.      ANC will evaluate the effectiveness of the reallocated
personnel once the backlog is reduced and decide if more personnel are required for ISB.


Conclusion
ANC has faced a growing backlog in scheduling final services for an ever-increasing
number of casketed and inurned remains. Part of the reason that the backlog has
increased significantly has been ANC’s implementation of an improved intake
call system that has resulted in fewer lost calls.        Fewer lost calls means more
burials to schedule into an interment schedule that limits the number of funeral
services, especially for casketed remains, to no more than 30 burials per day, 5 days
per week.   Additional manpower resources for ISB may allow an aggressive plan
to reduce the delay between initial intake call and ANC’s call back to the family to
coordinate scheduling, and conduct of the actual burials. On average, ANC received more
requests for burial services each week than they had the capacity to perform.


Recommendations, Management Comments, and
Our Response

        Recommendation 3.
        The Executive Director Arlington National Cemetery:

              1.	   Optimize the use of overtime and borrowed military
                    manpower to support existing schedulers in reducing the
                    backlog of scheduled burials.

              2.	   Assess the effectiveness of current process and manpower
                    levels for schedulers and representatives and adjust as
                    necessary.




                                                                                Report No. DODIG-2014-026 │ 33
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




                                    3.	   Identify shortfalls in military funeral support and
                                          coordinate with the Military Services to mitigate.

                                    4.	   Assess alternative scheduling options that would allow
                                          expanding the number of burial services that can be
                                          accommodated, to include: increasing hours per day
                                          available for services, increasing numbers of days per
                                          week available for full military honors funerals, and
                                          increasing numbers of funeral services conducted per hour.



                  Management Comments
                  Executive Director for Arlington National Cemetery
                  The Executive Director for Arlington National Cemetery concurred with comment
                  with each of the sub-elements of Recommendation 3.

                             •	 ANC leadership initiated a three-phased effort to reduce the backlog of
                                 scheduled burials. First, a special team of six established initial contact
                                 over a 14 day period. Second, overtime hours were authorized to reduce
                                 the number of “ready to schedule” in backlog from 1911 in July to 656
                                 as of October 1, 2013. Third, additional personnel were hired to meet
                                 the scheduling challenge. ANC continues to work aggressively to reduce
                                 the time between the initial request to schedule a service and actual
                                 conduct of the service.

                             •	 ANC staff is conducting a full assessment of the personnel and mission
                                 requirements to meet burial requests. Monitoring of the productivity and
                                 efficiency metrics resulted in actions to streamline the process.

                             •	 ANC staff meets monthly with representatives from the military services
                                 to discuss challenges and deconflict operational concerns. The informal
                                 inter-service coordination meeting ensures effective utilization and
                                 maximum use of all available resources.

                             •	 ANC leaders continually assess opportunities to more efficiently and
                                 effectively conduct funeral services for Veterans and loved ones. All possible
                                 opportunities to increase interment services in a dignified and respectful
                                 manner are being pursued, while ensuring that the quality of each and
                                 every service is maintained.     ANC is the only national cemetery which
                                 inters on Saturday, thereby creating additional opportunities to schedule



34 │ Report No. DODIG-2014-026
                               Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



           services during the week. Expansion projects will provide the physical
           disbursement of locations for simultaneous above ground inurnments and
           in-ground interments to keep pace with current requests for burial at ANC.

Our Response
Executive Director for Arlington National Cemetery
The comments of the Executive Director for Arlington National Cemetery were
responsive and met the intent of each of the sub-elements of Recommendation 3.
ANC has devoted much time and effort to further improve their burial operations.
No further comment is required at this time.




                                                                              Report No. DODIG-2014-026 │ 35
                                                Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




Observation 4
Single Interagency Standard
There is no single interagency authority or standard for grounds maintenance,
concession authority, and other essential services that support the ANC Complex.13

ANC has not been granted concession authority by Congress to operate or to maintain
certain services on the ANC Complex. The current memoranda of agreement do not
include all key operations and services that exist between the different agencies
which operate within the ANC Complex.

As a result, the ANC Complex operations do not achieve unified actions in certain
service support operations and the Federal Government incurs additional operating
charges for the outsourcing of operations by other agencies that ANC is capable
of executing.

	13	
       For purposes of this report, ANC Complex is defined as all 624 acres of geographical space that makes up what is inherently
       known as Arlington National Cemetery in Arlington, Virginia.




Applicable Criteria
(See Appendix E, numbers 5, 18, 19, 9, 4, 17, and 11 for additional details)

Arlington National Cemetery Program Acquisition – Overarching Integrated Project
Team (A-OIPT) Standard Operating Procedures, July 10, 2012.

Proposed Section 4727, title 10, United States Code (10 U.S.C. § 4727 [2013])
“Cemetery Concessions” of Senate Bill S.1034.

Proposed H.R. 1960, Section 592 “Authority to Enter into Concession Contracts at
Army National Military Cemeteries,” National Defense Authorization Bill of Fiscal
Year 2014, dated July 8, 2013.

Memorandum of Agreement Between National Park Service (NPS), U.S. Park Police,
Women in Military Service for America Memorial Foundation, and ANC, March 2013.

Real Estate Agreement between the U.S. Army Corps of Engineers, Baltimore District
(NAB) and the Army National Cemeteries Program, May 18, 2012.




                                                                                                                     Report No. DODIG-2014-026 │ 37
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  Concession Contracts; Subpart B – General Definitions 36 CFR sec. 51.3 (2000).

                  Exec. Order No. 13327, 69 Fed. Reg. 5897 (2004).


                  Discussion
                  ANC Lacks Operational Control Over Cemetery Services
                  Arlington National Cemetery management does not have the operating authority and
                  jurisdiction over the Army National Military Cemeteries it requires.

                  The Executive Director of ANMC, who has the responsibility for oversight and
                  operations of Arlington National Cemetery, has provided numerous testimonials to
                  Congress over the last 3 years regarding the difficulty posed by multiple agencies and
                  concessionaires over which the Executive Director does not have direct supervision
                  operating within ANC. In addition to DoD, other agencies – specifically, the National
                  Park Service, the United States Park Police, and Women in Military Service for
                  America Memorial Foundation – also provide services at ANC.                  Reportedly, this
                  has led to problematic service support situations including the sudden cessation
                  or delay in providing essential services to the public. Specifically, in one instance,
                  with little notice to the ANC leadership, the NPS discontinued the only bus service
                  moving visitors throughout the cemetery.

                                                                    ANC’s inability to centralize operational
                                                                    control has also prevented maintaining a
                                                                    consistent aesthetic and therefore credible
                                                                    image throughout the ANC Complex. For
                                                                    example, there are two separate grounds
                                                                    maintenance    contracts    servicing   the
                                                                    Arlington   National   Cemetery   Complex
                                                                    providing similar services with disparate
                     Figure 18. The Women in Military Service for
                     America Memorial                               standards—one administered by the NPS
                     Source: DoD IG-SPO
                                                                    (for the Lee House and Memorial Drive)
                  and the other by the Army (for the remainder of the cemetery grounds). The result is
                  that the lawns maintained by the NPS contractors are not maintained at the standard
                  of the meticulously manicured lawns maintained under the Army contracts.

                  Also, since the U.S. Government has multiple contracts for similar services at the ANC
                  Complex, there is a potential inefficiency and higher cost resulting from a duplication
                  of resources expended to establish, execute, and provide oversight to those contracts,
                  leading to excessive expenditure of the public’s money.



38 │ Report No. DODIG-2014-026
                                               Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




   Figure 19. ANC Lawns Maintained by the Army vs. NPS
   Source: DoD IG-SPO

Concession Authority14
Some services on the ANC Complex were offered through concession agreements15
controlled by other agencies.                     Congress has not granted ANC the authority over
concession agreements.                     Due to the lack of concession authority, ANC must
negotiate with other agencies that have been granted concession authority to
coordinate for the delivery of operational services to support ANC.                                          This lack of
concession authority impedes ANC Complex operations and may not be the best
way to maintain proper stewardship of taxpayer dollars.

ANC Lacks Control of Operations
Because ANC cannot grant concession agreements, it can neither control nor oversee
the provision of operational visitors’ services on the Complex to include parking,
bookstore, and bus/shuttle service.                       The Complex parking garage is leased to the
U.S. Army Corps of Engineers. The parking garage is operated under a Department
of the Army real estate lease, administered by ANC through the real estate service
provided by intra-agency agreement with Corps of Engineers. ANC is reimbursed all
parking proceeds for its use. Also, ANC has complete control over the operations of
the parking garage. The NPS has concession authority for the bus/shuttle service
and the bookstore at the Complex. In addition, NPS retains ownership and upkeep
responsibility for certain historic facilities (Custis Lee House) located on the grounds.




	14	
       S.1034, Section 316 and H.R. 1960, Section 592 both have language regarding granting ANC concession authority.
	15	
       A concession or concession contract is a binding written agreement between an agency and a concessioner that authorizes
       the concessioner to provide certain visitor services within a park area under specified terms and conditions. From this,
       concession authority is seen as the authority given to an agency by Congress to execute or grant concession agreements.




                                                                                                                  Report No. DODIG-2014-026 │ 39
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries




                     Figure 20. NPS-Operated Services
                     Source: DoD IG-SPO

                  Of note, the current NPS-operated bus service and routes only takes visitors
                  throughout a small fraction of the property (Lee House, Eternal Flame, Tomb of the
                  Unknown Soldier, etc.). ANC has expressed an interest in establishing a rotator bus
                  service to take riders to all parts of the cemetery rather than having them walk. ANC
                  concession authority would allow a more robust bus service and enhance visitors’
                  experience throughout their time at ANC.

                  ANC Congressional Concession Authority Request
                  The 2014 House Appropriations Subcommittee on Military Construction and Veterans
                  Affairs, and Related Agencies Appropriations Bill Report directed ANC to address
                  contract services and proposed actions in a report to the committee by July 19, 2013.
                  Representatives from ANC and NPS, along with congressional staff, discussed the
                  following arrangements predicated upon ANC receiving statutory concession authority:

                             •	 ANC will assume responsibility for visitor transportation services within
                                 the cemetery, to include service to the Arlington House, beginning in
                                 December 2014.

                             •	 No gap in transportation services will occur.

                             •	 ANC will not operate a gift shop.

                             •	 If required by NPS, ANC will coordinate with NPS to arrange for the
                                 transportation of visitors between the Lincoln Memorial and ANC.

                  Conclusion
                  Having multiple Federal government stakeholders operating within the ANC Complex
                  has proven unwieldy and financially inefficient and costly. The proposed language
                  on concession authority in H.R. 1960, section 592 of the National Defense
                  Authorization Bill of Fiscal Year 2014 focuses on an effort to address the problem.
                  Unless and until the proposed concession language becomes law, ANC must continue
                  to partner with other agencies that retain concession authority.        The longer such
                  authority is withheld from ANC, the longer the lack of control will continue to impede
                  ANC Complex operations, preventing proper stewardship of cemetery operations and
                  taxpayer dollars.
40 │ Report No. DODIG-2014-026
                               Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries


Recommendations, Management Comments, and
Our Response
Redirected Recommendation
The recommendation in the draft report asked the Under Secretary of Defense for
Personnel and Readiness to develop a legislative change request to address the
differing National Park Service and Army standards of appearance for ANC grounds.
The Under Secretary of Defense for Personnel and Readiness responded, asking that
we redirect the recommendation to the Under Secretary of Defense for Acquisition,
Technology and Logistics. However, the Secretary of the Army non-concurred with the
recommendation in the draft report, stating that legislative change was not required
and that he would assume responsibility for corrective action. Accordingly, we rewrote
Recommendation 4.a.2 and redirected responsibility to the Secretary of the Army.


        Recommendation 4.a.
              2.	   Secretary of the Army, coordinate with the National Park
                    Service to develop mutually agreed upon standards for
                    appearance of the Arlington National Cemetery complex.


Management Comments Required
The Secretary of the Army did not have the opportunity to comment on the revised
Recommendation 4.a.2. We request the Secretary of the Army provide comments on
this recommendation.



        Recommendation 4.a.
        The Secretary of the Army, in coordination with the Office of the Under
        Secretary of Defense for Personnel and Readiness:

              1.	   Continue to express support for the final proposed Fiscal
                    Year 2014 National Defense Authorization Act that includes
                    the developed legislative request granting concession
                    authority to the Arlington National Cemetery.

        Recommendation 4.b.
        The Secretary of the Army, in coordination with the Office of the
        Secretary of Defense, coordinate with the Office of Management
        and Budget to implement interagency best practices for contracted
        services supporting Arlington National Cemetery to ensure efficient
        and effective operations.

                                                                              Report No. DODIG-2014-026 │ 41
Part II - Arlington and Soldiers’ and Airmen’s Home National Cemeteries



                  Management Comments
                  Secretary of the Army
                             •	 The     Secretary    of    the     Army     concurred     with    comment   to
                                 Recommendation  4.a.1.          The Army will continue support for the
                                 proposed FY 14 National Defense Authorization Act.

                             •	 The    Secretary    of    the    Army     non-concurred    with   comment   to
                                 Recommendation 4.a.2.          The Army did not believe that legislating
                                 interagency standards was appropriate.          They will continue a close
                                 working relationship with the National Park Service to ensure standards
                                 are met.

                             •	 The     Secretary    of    the     Army     concurred     with    comment   to
                                 Recommendation  4.b.      The Army believes it should have the flexibility
                                 to determine how to best care and maintain ANC’s facilities. The Army
                                 will seek out best practices and keep the Office of the Secretary of
                                 Defense and the Office of Management and Budget informed when efficiencies
                                 are realized.

                  Under Secretary of Defense for Personnel and Readiness
                  The Under Secretary of Defense for Personnel and Readiness, Military Community
                  and Family Policy, concurred with Recommendation 4.a.1. They are supportive of
                  the FY 14 NDAA and the legislative request.                  Their request for redirecting
                  Recommendation 4.a.2. to the Under Secretary of Defense for Acquisition, Technology,
                  and Logistics is no longer applicable, as we redirected the recommendation to
                  the Secretary of the Army.


                  Our Response
                  Secretary of the Army
                  The comments of the Secretary of the Army are responsive for 4.a.1. and no
                  further comments are required at this time. The comments for 4.a.2. in the draft
                  report, while a non-concurrence, are considered responsive.               We redirected the
                  recommendation from the Under Secretary of Defense for Personnel and
                  Readiness, Military Community and Family Policy to the Secretary of the Army
                  for response.        The comments for 4.b. are considered responsive.             No further
                  comments are required at this time.

                  Under Secretary of Defense for Personnel and Readiness
                  The comments of the Under Secretary of Defense for Personnel and Readiness,
                  Military Community and Family Policy are responsive for 4.a.1. and no further
                  comments are required at this time.

42 │ Report No. DODIG-2014-026
Part III
Additional Issues



Introduction
This section contains a series of observations that apply to both cemeteries that may
prove useful to management. There are no recommendations.




                                                                           Report No. DODIG-2014-026 │ 43
                                                                                    Part III - Additional Issues




Additional Issues
Executive Agency for Military Cemeteries
The Office of the Secretary of Defense (OSD) established a military cemetery working
group as a result of DoD IG’s previous report on military cemeteries. The group
recommended the Army become the executive agency for all military cemeteries
since the Army possessed the majority16 of military cemeteries and had already
developed and implemented the most advanced rules and regulations for their
operations. The OSD Office of Director for Administration and Management (ODAM)
does not concur that the Army is the appropriate vehicle for establishing military
cemetery policy and operational procedures.                     We believe that ODAM should
reconsider this issue in order to standardize procedures and policies across the
military cemeteries.




   Figure 21. Group Interment at ANC
   Source: DoD IG-SPO



Monuments/Group Interment Headstone Policy
Currently, there are no written standards for group interment headstones that
establish a timeline by when all data for those interred must be received from
the respective survivor families.                  ANC has an SOP, but only for the headstone
ordering and marking process. The ANC Advisory Committee may want to consider
this issue.




	16	
       Army has over 25, Navy - 3, Air Force - 5




                                                                                     Report No. DODIG-2014-026 │ 45
Part III - Additional Issues



                  Civilian/Private Headstone Policy
                  ANC has no written standards on how to provide
                  proper memorialization if there are errors on
                  the headstone.        There is a policy for private
                  headstones that spells out the information
                  and processes to correct an incomplete or
                  incorrect headstone (the information on the
                  stone).        However, even this does not appear
                  to be done on a routine basis. The ANC Advisory
                  Committee may want to consider this issue.                 Figure 22. A Private Headstone
                                                                             Source: DoD IG-SPO


                  ANC Advisory Committee
                  The Secretary of the Army has championed Arlington National Cemetery throughout
                  the last 3 years and has put in place the people required to provide the turn-around of
                  the cemetery’s operations. In 2010, an Advisory Commission was established by DoD
                  to advise and consult with the SECARMY on the administration of ANC.




                     Figure 23. ANC Advisory Committee
                     Source: ANC


                  In 2012, a new law passed (section 4723, title 10 United States Code (10 U.S.C. § 4723
                  [2013])) stating the Secretary of the Army shall appoint an advisory committee on
                  ANC with roles, reports and recommendations, as well as submit a written report
                  submission to Congress.                The committee: (provides) independent advice and
                  recommendations on the Army National Cemeteries Program, including, but not
                  limited to:

                             a.	 management and operational issues, including bereavement practices,

                             b.	 plans and strategies for addressing long-term governance challenges,




46 │ Report No. DODIG-2014-026
                                                                                Part III - Additional Issues



        c.	 resource planning and allocation, and

        d.	 any other matters relating to Army National Cemeteries that the
           Committee’s co-chairs, in consultation with the Secretary of the Army,
           may decide to consider.

The Committee has accomplished the tasks set forth in the 2012 legislation:
administration of Arlington National Cemetery, the erection of memorials at the
cemetery, and master planning for the cemetery. Because of the experience of the
committee, they could now be asked to examine other politically sensitive issues
affecting ANC. Examples include:

        •	 Millennium Project,

        •	 Navy Annex,

        •	 policies for group monuments/
           headstones,

        •	 private headstone policy,

        •	 providing       transparent   policy
                                                  Figure 24. Group Headstones
           on   exception       to   interment    Source: DoD IG-SPO
           criteria, and

        •	 other matters important to ANC’s current and future operations.


Leadership Succession
In 2 months during the summer of 2013, four key leaders, holding five positions,
departed ANC:

        •	 Executive Director,

        •	 Leading Information Technology Officer (CIO/C6),

        •	 Leading Graves Accountability Point of Contact,

        •	 Strategic Planner, and

        •	 Special/Administrative Assistant to the Executive Director.

The departure of the four key leaders in a short period of time was unusual at
ANC. The vacancies were created by various factors, including retirement, reassignment,
and expiration of temporary duties.




                                                                                 Report No. DODIG-2014-026 │ 47
Part III - Additional Issues



                  To avoid significant loss of corporate knowledge, ANC should take lessons learned
                  from this scenario and use it to their advantage in future planning by incorporating
                  them into their continuity of operations plan.        Lessons learned should emphasize
                  the following:

                             •	 continuity of operations plans must be put in place and exercised,

                             •	 vacant leadership positions must be prioritized for immediate replacement,
                                 and

                             •	 management must administer SOPs to maintain personnel levels.


                  Oversight
                  Title 10 directs the Secretary of the Army to provide oversight of Army cemeteries
                  ensuring the highest quality standards are maintained by providing the periodic
                  inspection of cemetery administration, operation, and maintenance.            Additionally,
                  Headquarters Department of the Army (HQDA), through Army Directive 2010-04,
                  directed the Executive Director, ANMC to improve oversight over the Army National
                  Cemeteries, specifically through the establishment of a “Provisional Oversight Group”
                  to assist in the oversight of the cemeteries.       The Group will develop, coordinate,
                  and implement plans, policies, processes, and procedures to correct and mitigate
                  deficiencies. The Department of the Army “Executive Report” from January 25, 2013,
                    stated, “Currently ANC does not have the organizational structure or people to
                  accomplish the necessary oversight of all Army post cemeteries.” We concur with the
                  report and suggest the HQDA in consultation with the Executive Director, consider
                  increasing the ANMC TDA to include an external inspection and evaluation capability.




48 │ Report No. DODIG-2014-026
                                                                                             Appendices




Appendix A
Scope and Methodology
We conducted this assessment from February 28, 2013, to June 14, 2013, in
accordance with the Quality Standards for Inspection and Evaluation. We planned
and performed the assessment to obtain sufficient and appropriate evidence to
provide a reasonable basis for our observations, conclusions, and recommendations
based on our objectives. Site visits to Arlington National Cemetery, the Soldiers’
and Airmen’s Home National Cemetery, Mission and Installation Contracting
Command-Fort Belvoir, and the U.S. Army Corps of Engineers-Norfolk District
were conducted from April to June 2013.

We reviewed documents such as Federal laws and regulations, including the National
Defense Authorization Act, Service regulations, and guidance.

The purpose of this project was to assess the implementation of Army
Directive 2010-04 (Enhancing the Operations and Oversight of the Army National
Cemeteries Program).

        •	 The following areas were within the scope of this project:

                  °° Arlington National Cemetery, with over 400,000 interments, and

                  °° Soldiers’ and Airmen’s Home National Cemetery, with over
                     15,000 interments.

        •	 The following areas were outside the scope of this project:

                  °° Cemeteries located on current and former military installations
                     inside and outside the United States, and

                  °° Cemeteries maintained by the American Battle Monuments
                     Commission.

We visited or contacted organizations in the U.S. that are responsible for planning and
accomplishing the operating and maintaining of Arlington National Cemetery and
the Soldiers’ and Airmen’s Home National Cemetery. We also visited with both the
Mission and Installation Contracting Command-Fort Belvoir and the U.S. Army Corps
of Engineers-Norfolk District who support contracting operations at the cemeteries.




                                                                              Report No. DODIG-2014-026 │ 49
Appendices



                  The ANC Team chronology was:


                  January - March 2013		          Research
                  April - June 2013		             Fieldwork
                  June - September 2013		         Analysis and report writing
                  September 2013		                Draft assessment report issued
                  October - November 2013	        Management comments received and evaluated
                  November 2013		                 Final Report Issued


                  Limitations
                  We limited our review to Arlington and the Soldiers’ and Airmen’s Home National
                  Cemeteries.


                  Use of Computer-Processed Data
                  We utilized computer-processed data in this assessment: specifically, spreadsheets
                  and output from relational databases. We did not independently assess the reliability
                  of each file provided, to include: formula verification, report output formats, etc.


                  Use of Technical Assistance
                  We consulted with the DoD IG Quantitative Methods Division to develop the
                  statistical sampling methodology and draw the random sample.




50 │ Report No. DODIG-2014-026
                                                                                            Appendices




Appendix B
Prior Coverage
There have been many reports within the last 3 years regarding all aspects of
Arlington National Cemetery operations.       The Government Accountability Office,
the Department of Army Inspector General, and Army Audit Agency have issued a
number of reports and testimonies discussing cemetery operations at Arlington
National Cemetery.     The team used these to build our knowledge base for
this assessment.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

Some of the prior coverage we used in preparing this report includes:


GAO
GAO-12-105, “Arlington National Cemetery: Management Improvements Made, But a
Strategy is Needed to Address Remaining Challenges,” December 2011.

GAO-12-99, “Arlington National Cemetery: Additional Actions Needed to Continue
Improvements in Contract Management,” December 2011.


Army
“Report to Congress on Implementation of Army Directive on Army National
Cemeteries Program,” September 18, 2011.

Arlington National Cemetery Gravesite Accountability Task Force, “Report to
Congress on Gravesite Accountability Study Findings,” December 22, 2011.

“Congressional Report on Reservations in Response to Public Law 112-154,
Section 602,” August 6, 2012.

“Report to Congress on Implementation of Army Directive on Army National
Cemeteries Program,” September 17, 2012.


Army IG
Army IG Report, “Special Inspection of Arlington National Cemetery Final Report,”
June 9, 2010.




                                                                             Report No. DODIG-2014-026 │ 51
Part III - Additional Issues



                  Army IG Report, “Interim Review: Arlington National Cemetery,” March 11, 2011.

                  Army IG Report, “Department of the Army Inspector General Inspection of the Army
                  National Cemeteries Program and Arlington National Cemetery,” September 16, 2011.

                  Army IG Report, “Department of the Army Inspector General Inspection of the Army
                  National Cemeteries Program,” September 16, 2012.


                  Army Audit Agency
                  Army Audit Agency Report A-2012-0091-FMF, “Review of Arlington National
                  Cemetery Controls Over Gravesite Accountability,” April 18, 2012.




52 │ Report No. DODIG-2014-026
                                                                                Part III - Additional Issues




Appendix C
Glossary
This appendix provides definitions of terms used in this report.

ANC – Arlington National Cemetery.

ANC Complex – Arlington National Cemetery grounds, the area within the cemetery walls
that includes all structures and land.

ANC Mapper – An application that is web-based and provides real-time gravesite
mapping of the Arlington National Cemetery.

Army National Cemeteries Program (ANCP) – The division in charge of Army
cemetery policies and procedures which provides guidance to Military cemeteries based
upon best practices. This term was replaced by ANMC.

Army National Military Cemeteries (ANMC) – The collection of Army cemeteries that
are managed, on some basis, by the Executive Director and staff. This term replaced ANCP.

Burial – This word encompasses both interments and inurnments and will be used in
place of both.

Case – All documentation associated with a burial.

Disinterment – The act of unearthing a deceased’s remains to be transferred and buried
at an alternate site.

Error – These include cases where a record exists for a decedent, but his or her information
is not reflected on the marker; the record does not match the gravesite location; or an
analyst requires an additional record to close the case.

Geographic Information System (GIS) – An automated tool for locating a deceased’s
gravesite in the cemetery.

Interment – The burial of the deceased’s body.

Interment Scheduling System (ISS) – The information system used by the ANC
schedulers to schedule burial services.




                                                                                  Report No. DODIG-2014-026 │ 53
Part III - Additional Issues



                  Inurnment – The burial of the deceased’s ashes after cremation.

                  Record – The documentation, paper or electronic, that makes up a case.

                  Remedy – The information system used by the ANC Call Center for inquiry and request
                  management.

                  Second Interments – The burial of two deceased personnel in one gravesite.

                  Soldiers’ and Airmen’s Home National Cemetery – The national military cemetery
                  located adjacent to the Soldiers’ and Airmen’s Home in Washington, D.C.




54 │ Report No. DODIG-2014-026
                                                                             Part III - Additional Issues




Appendix D
Organizations Contacted and Visited
(Including Cemeteries)
We visited, contacted, or conducted interviews with officials (or former officials) from
the following U.S. organizations:


United States
U.S. Congress
         •	 Officials assigned to the House Armed Services Committee

Department of Defense
         •	 Officials assigned to the Office of the Secretary of Defense for Personnel
           and Readiness Casualty and Mortuary Affairs

Department of the Army

         •	 Officials assigned to the Office of the Secretary of the Army

         •	 Officials assigned to the Army Inspector General

         •	 Officials assigned to the Army National Military Cemeteries

         •	 Officials assigned to Arlington National Cemetery

         •	 Officials assigned to the U.S. Army Corps of Engineers

         •	 Officials assigned to the Mission and Installation Contracting Command




                                                                              Report No. DODIG-2014-026 │ 55
Part III - Additional Issues




                  Appendix E
                  Policies
                  Other
                          1.	 Secretary of the Army, Army Directive 2010-04 “Enhancing the
                                 Operations and Oversight of the Army National Cemeteries Program,”
                                 June 10, 2010. This memorandum provides the basis for correcting the
                                 deficiencies found at ANC and was the basis for three Army Inspector
                                 General Reports and this DoD IG Assessment.

                          2.	 Department           of   the    Army   Memorandum,     “Executive   Report   –
                                 Organizational, Manpower and Equipment Study of the Army National
                                 Cemeteries,” July 23, 2010. This memorandum provides the results of
                                 an all-inclusive study conducted by the USAMAA and the USAFMSA of the
                                 current manpower organizational structure of ANC and its manpower,
                                 equipment requirements, and authorizations with full consideration of the
                                 diversity of its mission and functions and the volume and complexity of
                                 its workload.

                          3.	 Secretary of the Army Memorandum, “Army National Cemeteries
                                 Program Campaign Plan 2012,” January 1, 2012. This memorandum
                                 establishes the way ahead for Army cemeteries.

                          4.	 Real Estate Support Agreement Between the U.S. Army Corps
                                 of Engineers, Baltimore District (NAB) and the Army National
                                 Cemeteries Program, May 18, 2012. This support agreement establishes
                                 and defines the terms by which real estate support services will be provided
                                 to ANC by NAB. This is not an “inter-agency” agreement in context with
                                 the observation, but an “intra-agency” agreement between the Department
                                 of Defense and the Department of the Army department for real estate
                                 service to ANC.

                          5.	 Arlington      National         Cemetery   Program   Acquisition—Overarching
                                 Integrated Project Team (A-OIPT) Standard Operating Procedures
                                 (SOP), July 10, 2012.          This standard operating procedure provides a
                                 general overview of roles and responsibilities across ANCP Acquisition—
                                 Overarching Integrated Project Team members and how to coordinate
                                 with the ANCP Contract Support Element to facilitate the execution of
                                 ANCP mission requirements.



56 │ Report No. DODIG-2014-026
                                                                                       Appendices



6.	 Department       of   the   Army    Memorandum,       “Executive   Report    –
      Organizational Manpower and Equipment Assessment and Update
      of the Army National Cemeteries,” January 25, 2013. This memorandum
      provides the results of an assessment conducted by the USAMAA, the
      USAFMSA, and the Executive Director, Army National Cemeteries
      Program for current and planned changes to ANC business processes and
      staffing requirements.

7.	   Arlington National Cemetery, U.S. Army, “Table of Distribution and
      Allowances,” February 27, 2013. This document establishes the personnel
      and positions required and authorized to operate and manage ANMC.

8.	 Department of the Army, Complete Statement of Ms. Kathryn A.
      Condon, Executive Director, Army National Military Cemeteries, before
      the Subcommittee On Military Construction, Veterans’ Affairs and
      Related Agencies Committee on Appropriations, United States House
      of Representatives, First Session, 113th Congress, March 13, 2013. This
      statement documents ANC progress and details challenges presented by
      fiscal constraints imposed by the Budget Control Act of 2011.

9.	   Memorandum of Agreement Between George Washington Memorial
      Parkway, National Park Service, the United States Park Police,
      Women in Military Service for America Memorial Foundation, and
      Arlington National Cemetery, March 2013.             This memorandum of
      agreement establishes a formal agreement between the NPS, the USPP,
      Women In Military Service For America Memorial Foundation, and ANC
      regarding ANC’s use of Memorial Avenue and additionally formalizes
      NPS and USPP’s support to ANC.

10.	 Fragmentary Order 1 to Annex A (ANC Strategy Map Details) to
      “Army National Cemeteries Campaign Plan 2012,” March 27, 2013.
      This annex provides detailed definitions and descriptions of the major
      components of the Arlington National Cemetery 2013 Strategy Map, to
      include metrics and milestones.

11.	 Executive Order 13327 of February 4, 2004, “Federal Real Property
      Asset Management.”         This policy directs the promotion of the
      efficient and economical use of America’s real property assets assures
      management accountability for implementing Federal real property
      management reforms.




                                                                        Report No. DODIG-2014-026 │ 57
Appendices



                  United States Code and Hearings
                  Public Laws
                          12.	 Public Law 99-177, “Gramm-Rudman-Hollings Balanced Budget and
                                 Emergency Deficit Control Act of 1985.”

                          13.	 Public Law 111-339, “Reports on Management of Arlington National
                                 Cemetery, 2010.”

                          14.	 Public Law 112–25, “Budget Control Act, 2011.”

                          15.	 Section 591, “National Defense Authorization Act of Fiscal Year 2013,”
                                 January 3, 2013 Army National Military Cemeteries, chapter 446, title 10,
                                 United States Code (10 U.S.C. chapter 446 [2013]).

                          16.	 Army National Cemeteries, 32 CFR sec. 553 (2009).

                          17.	 Concession Contracts; Subpart B – General Definitions 36 CFR sec. 51.3
                                 (2000).

                          18.	 Proposed Section 4727, title 10, United States Code (10 U.S.C. § 4727 [2013])
                                 “Cemetery Concessions.”

                          19.	 Proposed H.R. 1960, Section 592 “Authority to Enter into Concession
                                 Contracts at Army National Military Cemeteries,” National Defense
                                 Authorization Bill of Fiscal Year 2014.

                  Statistical Analysis
                          20.	 Sampling Techniques, 3rd Ed., William G. Cochran, 1977.




58 │ Report No. DODIG-2014-026
                                                                                          Appendices




Appendix F
2013 National Defense Authorization Act Language
SEC. 591. INSPECTION OF MILITARY CEMETERIES UNDER THE JURISDICTION OF
DEPARTMENT OF DEFENSE.

(a) DOD INSPECTOR GENERAL INSPECTION OF ARLINGTON NATIONAL CEMETERY
AND UNITED STATES SOLDIERS’ AND AIRMEN’S HOME NATIONAL CEMETERY.—
Section 1(d) of Public Law 111–339 (124 Stat. 3592) is amended—

(1) in paragraph (1), by striking ‘‘The Secretary’’ in the first sentence and
inserting ‘‘Subject to paragraph (2), the Secretary’’; and

(2) in paragraph (2), by adding at the end the following new sentence: ‘‘However,
in the case of the report required to be submitted during 2013, the assessment
described in paragraph (1) shall be conducted, and the report shall be prepared
and submitted, by the Inspector General of the Department of Defense instead of
the Secretary of the Army.’’


Language from original NDAA requiring the inspection and
the adjusted language based on 2013 NDAA above:
REPORTS ON IMPLEMENTATION OF ARMY DIRECTIVE ON ARMY NATIONAL
CEMETERIES PROGRAM.—

(1) IN GENERAL.—The Secretary of the Army shall submit to the appropriate committees
of Congress reports on execution of and compliance with Army Directive 2010–04 on
Enhancing the Operations and Oversight of the Army National Cemeteries Program,
dated June 10, 2010. Each such report shall include, for the preceding 270 days or
year (as applicable), a description and assessment of the following:

(A) Execution of and compliance with every section of the Army Directive for
Arlington National Cemetery, including, without limitation, an evaluation of the
sufficiency of all contract management and oversight procedures, current and
planned information and technology systems, applications, and contracts, current
organizational structure and manpower, and compliance with and execution of
all plans, reviews, studies, evaluations, and requirements specified in the
Army Directive.




                                                                           Report No. DODIG-2014-026 │ 59
Appendices



                  (B) The adequacy of current practices at Arlington National Cemetery to provide
                  information, outreach, and support to families of those individuals buried at
                  Arlington National Cemetery regarding procedures to detect and correct current
                  errors in burials at Arlington National Cemetery.

                  (2) PERIOD AND FREQUENCY OF SUBMITTAL.—A report required by paragraph
                  (1) shall be submitted not later than 270 days after the date of the enactment of
                  this Act, and every year thereafter for the next 2 years.

                  (1) IN GENERAL.—Subject to paragraph (2), the17 Secretary of the Army shall submit
                  to the appropriate committees of Congress reports on execution of and compliance
                  with Army Directive 2010–04 on Enhancing the Operations and Oversight of the
                  Army National Cemeteries Program, dated June 10, 2010. Each such report shall
                  include, for the preceding 270 days or year (as applicable), a description and assessment
                  of the following:

                  (A) Execution of and compliance with every section of the Army Directive for
                  Arlington National Cemetery, including, without limitation, an evaluation of the
                  sufficiency of all contract management and oversight procedures, current and
                  planned information and technology systems, applications, and contracts, current
                  organizational structure and manpower, and compliance with and execution of
                  all plans, reviews, studies, evaluations, and requirements specified in the
                  Army Directive.

                  (B) The adequacy of current practices at Arlington National Cemetery to provide
                  information, outreach, and support to families of those individuals buried at Arlington
                  National Cemetery regarding procedures to detect and correct current errors in
                  burials at Arlington National Cemetery.

                  (2) PERIOD AND FREQUENCY OF SUBMITTAL.—A report required by paragraph
                  (1) shall be submitted not later than 270 days after the date of the enactment of this
                  Act, and every year thereafter for the next 2 years. However, in the case of the report
                  required to be submitted during 2013, the assessment described in paragraph
                  (1) shall be conducted, and the report shall be prepared and submitted, by the
                  Inspector General of the Department of Defense instead of the Secretary of the Army.




                  	17	
                         The red indicates how the NDAA of 2011 would read with NDAA 2013 language inserted.




60 │ Report No. DODIG-2014-026
                                                                                                                        Appendices




Appendix G
Statistical Analysis

                                                                                      June 27, 2013


                                          Memorandum for the Record



       To:               John Taylor Project Manager, SPO


       From:                                  , Audit‐DPAO, QMD

       Thru:                                                        , Audit‐DPAO, QMD



       Subject:          Methodology for Evaluation of Arlington National Cemetery



 Objective: The main objective of the sample is to test the quality of burial management and records
 keeping at Arlington National Cemetery (ANC).

 Background and Population: The OIG received two files containing a combined 432,703 records for
 individuals interred or inurned at the ANC. These include 343,937 grave records and 88,766
 columbarium records1. The combined records are associated with 352,938 locations based on the
 GIS_grave_section and GIS_grave_location fields in the file provided.

 Methodology: The approach for ANC differs from that for SAHNC. There have been prior audits of the
 management and records‐keeping for ANC by the Army Audit Agency and Army Inspector General. SPO
 leadership and the project manager requested a design which would test overall quality rather than be
 used for estimating the overall error numbers. The SPO team consulted with QMD staff who developed
 a set of alternative scenarios based on hypothetical error rates and several confidence levels. SPO chose
 to conduct the internal controls sample at the 99 percent confidence level testing against an allowable
 error rate of one percent. Given the 352,938 locations and those parameters, QMD analysts determined
 the sample size would be 459, allowing no errors. Put in a different perspective, if there is less than one
 percent locations with errors in the population, 99 times in 100 our sample would have zero errors. The
 sample of 459 locations was designed and drawn for the internal controls test outlined above. It was
 not designed to quantify the error rate for the 352,938 locations. Because the expected error rate was



 1
   Grave locations are identified by the GIS_grave_section field and the GIS_grave_location field information. Those
 for columbarium locations are based on court, section, column, and row information. The combined file uses two
 constructed values to identify location – type (grave or niche) and a one‐column merge of the two grave columns’
 information or the four niche columns’ information.




                                                                                                         Report No. DODIG-2014-026 │ 61
Appendices



                  Statistical Analysis (cont’d)




                    low, given improvements made to ANC management and evaluations by the GAO, Army Inspector
                    General, and Army Audit Agency, it would have required a much larger sample to get a reliable estimate.

                    Sample Results and Statistical Estimate: There was one sample location with one error. Since the test
                    had a zero error tolerance level, the results of the sample show that we are 99 percent confident that
                    the error rate for all locations is over one percent.




62 │ Report No. DODIG-2014-026
                                                                                                                          Appendices



Statistical Analysis (cont’d)



                                                                                        June 27, 2013


                                          Memorandum for the Record



       To:               John Taylor Project Manager, SPO


       From:                                           DPAO, QMD

       Through:                                                     , Audit‐DPAO, QMD



       Subject:          Methodology for Evaluation of Soldiers’ and Airmen’s Home National
                         Cemetery



 Objective: Estimate the number of burials in the Soldiers’ and Airmen's Home National Cemetery
 (SAHNC) with errors. These errors1 involve: Name, Date of Birth, Date of Death, Date of Interment,
 Location, Photo, Headstone, and Someone interred in an identified empty plot. The error was counted if
 not previously identified by SAHNC staff.

 Background and Population: The OIG received a file containing 15,724 records for individuals interred at
 the SAHNC. These records are associated with 15,038 locations based on the GIS_grave_section and
 GIS_grave_location fields in the file provided. The field work is based on a sample of 375 locations
 (graves) at SAHNC. The 375 locations are associated with SAHNC 386 records.

 Methodology: The sampling objective was to be able to estimate the number of individuals interred at
 SAHNC with errors or inconsistencies in information about the individuals involved . OIG statisticians
 from the Quantitative Methods Division, based on discussion with the project management drew a
 simple random sample of 375 locations2.

 Sample Results and Statistical Estimates: There were errors involving six individuals at six of the 375
 sample locations. The following table presents the results.




 1
  If they are known, error testing applies to Date of Birth (DoB), Date of Death (DoD), and Date of Interment (DoI).
 2
  QMD used an assumed attribute (pass/fail) design with a confidence level of 95 percent and precision of five
 percent for sampling the 375 locations. There is no historical data to use for a variable estimate standard deviation
 parameter.




                                                                                                           Report No. DODIG-2014-026 │ 63
Appendices



                  Statistical Analysis (cont’d)




                                                                 SAHNC Estimate

                                                                       Estimated Individuals (Records) with Errors
                          Locations       Records              Lower Bound         Point Estimate       Upper Bound
                          15,038               15,724                 52                   241                  429


                      The table is read in the following way. For the 15,038 SAHNC locations involving 15,724 records, we
                      estimate there are 241 records of interments with errors. We are 95 percent confident that the true
                      number of records with errors lies between 52 and 429.




64 │ Report No. DODIG-2014-026
                                                  Management Comments




Management Comments
Executive Director, Arlington National Cemetery




                                                  Report No. DODIG-2014-026 │ 65
Management Comments



                  Executive Director, Arlington National Cemetery (cont’d)




66 │ Report No. DODIG-2014-026
                                                 Management Comments



Executive Director, Arlington National Cemetery (cont’d)




                                                 Report No. DODIG-2014-026 │ 67
Management Comments



                  Executive Director, Arlington National Cemetery (cont’d)




68 │ Report No. DODIG-2014-026
                                                 Management Comments



Executive Director, Arlington National Cemetery (cont’d)




                                                 Report No. DODIG-2014-026 │ 69
Management Comments



                  Executive Director, Arlington National Cemetery (cont’d)




70 │ Report No. DODIG-2014-026
                                                 Management Comments



Executive Director, Arlington National Cemetery (cont’d)




                                                 Report No. DODIG-2014-026 │ 71
Management Comments



                  Executive Director, Arlington National Cemetery (cont’d)




72 │ Report No. DODIG-2014-026
                                                 Management Comments



Executive Director, Arlington National Cemetery (cont’d)




                                                 Report No. DODIG-2014-026 │ 73
Management Comments



                  U.S. Army Corps of Engineers Comments




74 │ Report No. DODIG-2014-026
                                                 Management Comments



U.S. Army Corps of Engineers Comments (cont’d)




                                                 Report No. DODIG-2014-026 │ 75
Management Comments



                  OSD, Personnel and Readiness Comments




76 │ Report No. DODIG-2014-026
                                 Management Comments



Secretary of the Army Comments




                                 Report No. DODIG-2014-026 │ 77
Management Comments



                  Secretary of the Army Comments (cont’d)




78 │ Report No. DODIG-2014-026
                                          Management Comments



Secretary of the Army Comments (cont’d)




                                          Report No. DODIG-2014-026 │ 79
                                                                       Acronyms and Abbreviations




Acronyms and Abbreviations
    ANC Arlington National Cemetery
   ANCP Army National Cemeteries Program
  ANMC Army National Military Cemeteries
  A-OIPT Acquisition – Overarching Integrated Project Team
     CFR Code of Federal Regulations
  DoD IG Department of Defense Inspector General
  FRAGO Fragmentary Order
     GIS Geographic Information System
   HQDA Headquarters Department of the Army
      ISB Interment Services Branch
      ISS Interment Scheduling System
       IT Information Technology
  MICC-B Mission and Installation Contracting Command – Fort Belvoir
    MOA Memorandum of Agreement
    NAB Baltimore District
   NDAA National Defense Authorization Act
     NPS National Park Service
  ODAM Office of Director for Administration and Management
     OIG Office of Inspector General
     OIP Organizational Inspection Program
    OMB Office of Management and Budget
    OSD Office of the Secretary of Defense
     POC Point of Contact
  SAHNC Soldiers’ and Airmen’s Home National Cemetery
SECARMY The Secretary of the Army
     SOP Standard Operating Procedure
     TDA Table of Distribution and Allowances
     U.S. United States (of America)
  USACE U.S. Army Corps of Engineers
USAFMSA U.S. Army Force Management Support Agency
USAMAA U.S. Army Manpower Analysis Agency
   U.S.C. United States Code




                                                                          Report No. DODIG-2014-026 │ 81
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
